Office of Inspector General


June 15, 2011

MEMORANDUM

TO:                  John Peevey, Director
                     Management Services, Management Bureau

                     Cheryl Frederick, Director
                     Administrative Management Services, Africa Bureau

                     Rebecca Maestri, Director
                     Administrative and Management Services, Asia Bureau

FROM:                Joy Kadnar, Director /s/
                     Inspections and Evaluations Division, Office of Audit

SUBJECT:             Review of the Information and Records Division’s Implementation of Agency
                     Records Management Program (Review Report No. 2-000-11-004-S)

This memorandum transmits the final report on the subject review. We considered your
comments on the draft in finalizing the review report and have included your responses in
Appendix II.

This report contains six recommendations to improve the Agency’s records management
program. Based on an evaluation of management comments, final action has been taken on
Recommendation 1, and management decisions have been reached on Recommendations 2, 3,
4, 5, and 6. A determination of final action on these recommendations will be made by the Audit
Performance and Compliance Division upon completion of the planned corrective actions.

I appreciate the cooperation and courtesy extended to my staff during this review.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
SUMMARY
Federal agencies are required to manage their records according to the Federal Records Act
and corresponding regulations. Pursuant to the Federal Records Act, the National Archives and
Records Administration (NARA) issues records management guidance for federal government
agencies. USAID, in turn, established Automated Directives System (ADS) 502, “The USAID
Records Management Program,” to implement NARA regulations. ADS 502 established the
Bureau for Management, Management Services, Information and Records Division (IRD), and
designated the Chief of IRD as the Agency’s Records Officer, who is also responsible for
implementing the Agency’s records management program.

The objective of this review was to determine whether IRD manages USAID’s records program
according to NARA and Agency policy. The review covered practices and controls in the Asia
and Africa Bureaus.

Our review indicated that USAID’s records management program was not compliant in the
following ways:

   The Asia and Africa Bureaus did not comply with disposition requirements (page 4).

   The Asia and Africa Bureaus did not submit files plans, listing all files that a bureau
   maintains, to IRD (page 4).

   USAID employees did not attend training in records management (page 5).

   Records were improperly kept in shared drives and other electronic systems (page 6).

This report contains six recommendations to address these matters.             Specifically, it
recommends that:

1. The Asia Bureau Director of Administrative Management Services assign file custodians for
   each office (page 4).

2. The Directors of Administrative Management Services for Asia and Africa bureaus include
   records management duties in the work plans and performance evaluations of file
   custodians and records liaison officers (page 4).

3. The IRD Chief amend ADS 502 to make bureaus responsible for implementing the records
   management program and IRD responsible for establishing policy and ensuring compliance
   (page 5).

4. The IRD Chief amend ADS 502 to include provisions for mandatory Agency-wide records
   training (page 6).

5. The Director of the Human Resources Training and Education Division include an
   introductory module on the importance of records management and records management
   policies and procedures, including keeping electronic records, to be presented by IRD
   during new employee orientation (page 6).



                                                                                             2
6. The IRD Chief coordinate with the Chief Information Officer to develop and execute a plan
   for managing electronic records via a records management application (page 7).

Detailed results follow. Our evaluation of management comments is on page 8. Appendix I
contains the scope and methodology. Management comments are presented in their entirety in
Appendix II.




                                                                                          3
REVIEW RESULTS
Bureaus Did Not Comply With
Disposition Requirements
USAID follows NARA disposition schedules, which indicate how long records should be kept for
all records, and the USAID Washington Disposition Schedule, Chapter 5, “Geographic Bureau
General Records.”1 ADS 502.3 made IRD responsible for the overall management of the
records management program, and designated bureau-appointed records liaison officers and
file custodians executors for the disposition of records and other program elements.

The review found that neither the Asia Bureau nor the Africa Bureau complied fully with
Chapter 5 disposition schedules. For example, in the Asia Bureau, country records were found
that should have been disposed of 12 years ago. In the Africa Bureau, congressional
notification records were kept for 6 years instead of 1 year as scheduled, while briefing files
were kept for only 1 year instead of 3 years. The Asia Bureau did not comply with records
disposition schedules in part because it did not have file custodians to assist in records
management duties.           Furthermore, neither bureau included records management
responsibilities in the work plans of records liaison officers or file custodians.

When files are not kept for the proper duration, timely and complete response to Freedom of
Information Act requests or e-discovery2 could be impaired. If documents are disposed of early, it
is impossible for bureaus to produce all requisite documents when requested. Conversely,
retention of records authorized for disposition exposes the Agency to potentially expensive e-
discovery in legal proceedings. Improper record disposition presents legal and reputational risks
to the Agency. To facilitate compliance, this review makes the following recommendations.

    Recommendation 1. We recommend that the Asia Bureau’s Director of Administrative
    Management Services assign file custodians for each office.

    Recommendation 2. We recommend that the Directors of Administrative Management
    Services for the Asia and Africa Bureaus include records management duties in the work
    plans and performance evaluations of file custodians and records liaison officers.

Bureaus Did Not Submit Files Plans
to the Information and Records
Division
USAID’s ADS E502.5.7 requires records inventory and disposition plans, also called files plans,
show the location of the file station, the files maintained, the proper method for disposition of the
files, and the name and title of the file custodian. According to IRD Notice 0938, these plans
should be submitted to IRD annually.

The Asia Bureau had no files plan, and only one of the ten offices in the Africa Bureau
1
 A mandatory reference for ADS Chapter 502.
2
 Discovery in litigation that deals with the exchange of information in electronic format is called e-
discovery.


                                                                                                         4
submitted a files plan. Furthermore, according to IRD, less than 50 percent of offices Agency-
wide submitted files plans.

The Asia and Africa Bureaus did not submit files plans because the bureaus’ organizational
structures do not clearly identify areas of authority and responsibility or establish clear lines of
reporting regarding records management as required by the Government Accountability Office’s
Standards for Internal Controls in the Federal Government.3 Although ADS 502.3 states that
IRD is responsible for the overall management and implementation of the Agency’s records
management program, bureau-appointed records liaison officers and file custodians are the
program’s de facto implementation agents. In other words, IRD is not part of the line of
reporting for and has no authority over those responsible for carrying out its mandated function.

Without files plans, bureaus may not be able to locate important records. For example, the Asia
Bureau could not locate printed briefing or program correspondence files, and one manager
said he did not know that records were kept in Washington. The Africa Bureau could not locate
requisite printed program correspondence files.

To improve internal controls over records management, this review makes the following
recommendation.

     Recommendation 3. We recommend that the Chief of the Bureau for Management,
     Management Services, Information and Records Division, amend USAID’s Automated
     Directives System 502 to make bureaus responsible for implementing the records
     management program and Information and Records Division responsible for establishing
     policy and ensuring compliance.

USAID Employees Did Not Attend
Training in Records Management
Title 36 of the Code of Federal Regulations, Part 1220 (36 CFR 1220.34(f)), states that all
Agency employees should receive records management training. This training should include
identification of federal records in all formats and media. To fulfill this requirement, IRD sends
notices of and holds periodic training courses and offers online training.

However, this review determined that few USAID employees attended or completed records
training. Interviews disclosed that:

      Five of the ten managers interviewed from the Asia and Africa Bureaus stated that they had
      not attended records management training.

      Neither the Record Liaison Officer in the Asia Bureau nor her supervisor had attended
      records management training.

      Only 372 employees Agency-wide had completed USAID’s online records management
      class, which is a prerequisite for instructor-led records management courses.

IRD offers training but cannot compel employees to take records training without support from
bureau managers. Despite NARA guidelines, records management training is not mandatory

3
    GAO/AIMD-00-21.3.1, November 1999.


                                                                                                  5
for Agency employees. In addition, the new employee orientation does not include any
discussion of records management. As a result, USAID employees do not understand their
records management responsibilities. For example, 5 of 10 managers interviewed categorized
their knowledge of records policies as low, and 5 categorized their knowledge as medium. In
addition, employees interviewed during fieldwork frequently expressed confusion about records
management policies, ranging from incorrectly believing that it is Agency policy to keep only
electronic records to not knowing how to identify a record in the first place. To facilitate training,
this review makes the following recommendations.

   Recommendation 4. We recommend that the Chief of the Bureau for Management,
   Management Services, Information and Records Division, amend Automated Directives
   System 502 to include provisions for mandatory Agency-wide records training.

   Recommendation 5. We recommend that the Director of the Human Resources
   Training and Education Division include an introductory module on the importance of
   records management and records management policies and procedures (including
   electronic records) to be presented by the Information and Records Division in USAID’s
   new employee orientation.

Records Were Improperly Kept in
Shared Drives and Other Electronic
Systems
ADS 502.5.6b states that electronic text documents must be printed and maintained in paper
record-keeping systems because the Agency has not adopted a standard electronic record-
keeping system or an electronic information system to manage electronic text documents. If
individual offices have created or acquired an electronic record-keeping system, they may use it
to store some records provided they coordinate with IRD to ensure that the system meets NARA
guidelines. To begin such coordination, offices must submit electronic system inventory form
AID 502-1 before implementing an electronic record-keeping system.

In carrying out day-to-day business functions, Agency practices allow records to be managed
electronically in shared drives as long as the records are printed periodically and organized in
properly labeled folders, and IRD is consulted for instruction on the records’ disposition. It is a
violation of federal policy to dispose of records in advance of their approved disposition
schedule or to dispose of records that have not yet been assigned a schedule.

The review revealed that the Asia and Africa Bureaus did not systematically maintain electronic
text documents in hard copy. The Asia Bureau did not have any printed briefing files. Asia
Bureau officials indicated that their briefing files and subject files were kept electronically in a
shared drive (P-drive) and continuously updated. The Africa Bureau had briefing files for only 1
year prior and planned to cease printing them altogether in 2011. In addition, program
correspondence files, which include subject and country files, were kept only in the P-drive.

Noncompliance with the electronic record-keeping policy stemmed from a misunderstanding of
policy, insufficient records management requirements for some of the electronic systems
currently in use, and lack of coordination between the Office of the Chief Information Officer
(CIO) and IRD. Some employees believed that they were following policy by not printing
electronic text documents. In addition, because some electronic systems were approved for
keeping some types of records, offices were uncertain about which records to print and which to


                                                                                                    6
store electronically.

The review also indicated that offices did not submit form AID 502-1 before new electronic
systems were implemented for record keeping, and the CIO did not coordinate with IRD in
implementing new electronic record-keeping systems. The CIO has already taken steps to
correct this deficiency by requesting that the guidance manual be updated to include
confirmation of submission of forms to IRD. Furthermore, printing all electronic text documents
currently in shared drives would be expensive and time-consuming.

Neither the Asia Bureau nor the Africa Bureau complied with electronic storage of several types
of text documents discussed in USAID’s Disposition Schedule Chapter 5. As a result, these
bureaus cannot ensure that records—some of which may be essential to preserving the rights of
individuals and the federal government—are being identified and preserved. The bureaus may
have difficulty properly responding to inquiries such as Freedom of Information Act requests and
e-discovery in legal proceedings.4

In addition, these bureaus may be improperly disposing of federal records. Absent a printed
copy, the electronic record is the official federal record and should not be destroyed. When an
electronic file is updated and saved without capturing the previous version (by printing or
choosing “Save As” instead of “Save”), the previous version is effectively destroyed.
Continuously updated electronic files found in the Asia and Africa Bureaus are at high risk of
such inadvertent destruction. Given that the P-drive is a file organizer with no record-keeping
functionality, it cannot be used to track the full history of document edits. USAID may also
employ other systems that cannot track the full history of document edits, making it impossible
to know whether USAID employees are improperly deleting federal records by not printing or
saving electronic documents. To address this problem, this review makes the following
recommendation.

    Recommendation 6. We recommend that the Chief of the Bureau for Management,
    Management Services, Information and Records Division, work with the Deputy Chief
    Information Officer to develop and execute a plan to manage e-mail records and text
    documents electronically in accordance with National Archives and Records
    Administration guidelines.




4
 The Freedom of Information Act, codified at 5 U.S.C. 552 et seq., allows for the full or partial disclosure
of previously unreleased documents controlled by the U.S. Government.


                                                                                                          7
EVALUATION OF MANAGEMENT
COMMENTS
After evaluating management’s response to the draft report, we have determined that final
action has been taken on Recommendation 1, and management decisions have been reached
on Recommendations 2, 3, 4, 5, and 6.

Recommendation 1. The Asia Bureau agreed with the recommendation, and file custodians for
each of the Asia Bureau’s management units have been identified. All file custodians attended
the records management workshop offered by IRD in the Ronald Reagan Building March 15-17,
2011. Final action has been taken on this recommendation.

Recommendation 2. The Africa Bureau agreed with the recommendation, has planned to
prepare draft language for inclusion in the work plans and performance evaluations of all bureau
file custodians and records liaison officers, and provided a target date for completing action.

The Asia Bureau agreed with the recommendation in principle but stated that it did not have the
proper authority to implement this recommendation. However, the Asia Bureau’s Administrative
and Management Services office instructed the bureau’s unit managers to include relevant
records management language in the 2011 performance objectives of direct-hire file custodians
on May 11, 2011. Through subsequent discussions with the Asia Bureau, a target date of
September 30, 2011 for completing action was provided.

A management decision has been reached on this recommendation with a target date of
September 30, 2011, by which both bureaus plan to have completed action.

Recommendation 3. The IRD Chief agreed with the recommendation. IRD plans to revise
ADS 502 to make bureaus responsible for implementation of the records management program
and IRD responsible for establishing policy and ensuring compliance. The revision to ADS 502
will include the delineation of duties and responsibilities for the IRD Chief and all assistant
administrators, mission directors, the Offices of Inspector General and General Counsel, office
directors, and division and branch chiefs. The target date for completing these revisions to
ADS 502 is December 31, 2011. A management decision has been reached on this
recommendation.

Recommendation 4. IRD agrees with the recommendation and will revise ADS 502 to make
records training mandatory. The target date for the completion of the ADS revisions is
December 31, 2011. A management decision has been reached on this recommendation.

Recommendation 5. IRD and the Human Resources Training and Education Division agreed
with the recommendation and will develop an “Introduction to Records” presentation for USAID’s
new employee orientation. The target completion date is September 30, 2011. A management
decision has been reached on this recommendation.

Recommendation 6. IRD and the CIO agreed with the recommendation and will develop a plan
to implement a solution that will manage e-mail records and text documents electronically in
accordance with NARA guidelines. The plan will contain a plan of action, milestones, and


                                                                                              8
budget requirements for implementation. The target completion date is December 31, 2012. A
management decision has been reached on this recommendation.

Management comments are presented in their entirety in Appendix II.




                                                                                        9
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General’s Inspections and Evaluations Division conducted this review of
IRD’s management of USAID’s records program. This review complies with general standards
in Chapter 3 as well as with the evidence and documentation standards in Paragraph 7.55 and
Paragraphs 7.77 through 7.84 of the generally accepted government auditing standards. Those
standards require that we plan and perform the review to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions in accordance with the
review objective.

The purpose of this review was to determine whether IRD manages USAID’s records program
according to NARA and Agency policy. Although the review primarily focused on IRD, testing
took place in the Asia and Africa Bureaus because they are the largest geographic bureaus in
terms of obligated fiscal year 2010 program funds. We conducted this review at USAID
headquarters in Washington, D.C., from January 5 to February 2, 2011. The USAID CIO and
USAID Human Resources Division were involved in discussions regarding implementation of
recommendations.

The review focused on IRD’s implementation of USAID’s ADS 502, with particular attention to
compliance with NARA standards. The testing was limited to the implementation of controls over
the creation, use, and disposition of records. File inspections were limited to records described
in USAID Washington Disposition Schedule, Chapter 5, “Geographic Bureaus General
Records.”

Methodology

To answer the review objective, we determined whether USAID’s record-keeping policies in
ADS 502 incorporate all applicable NARA guidelines. We tested compliance by categorizing
ADS 502 controls into those pertaining to creation, use, or disposition of records.

   Under creation, we examined whether electronic records, including e-mails, were either (1)
   held in qualified systems or (2) printed. We tested whether form AID 502-1 was submitted
   before new electronic systems were implemented for record keeping. In addition, we
   surveyed managers regarding their level of records management training and policy
   awareness.

   Under use, we verified the existence of file stations and reviewed files plan submissions.
   We confirmed whether the bureaus conducted internal file reviews, followed files plans, and
   kept classified documents separately.

   Under disposition, we looked for the five file types, a total of 10 specific records, referenced
   in USAID Washington Disposition Schedule, Chapter 5, “Geographic Bureaus General
   Records.” We noted whether the records were found, how long they were kept, and in what
   format they were kept.



                                                                                                10
                                                                             Appendix II



MANAGEMENT COMMENTS


May 11, 2011



MEMORANDUM

TO:          Joy Kadnar, Director
             Inspections and Evaluations Division, Office of Audit

FROM:        John Peevey, Director /s/
             Management Services, Management Bureau

             Cheryl Frederick, Director /s/
             Administrative and Management Services, Africa Bureau

             Rebecca Maestri, Director/s/
             Administrative and Management Services, Asia Bureau

SUBJECT: Management Response to the Review of the Information and
         Records Division’s Implementation of Agency Records
         Management Program (Review Report No. 2- 000-11-003-S)


Thank you for the opportunity to respond to the draft review report. This memorandum
contains the management decisions for the Draft Review of the Information and
Records Division’s Implementation of Agency Records Management Program.

The following are our management decisions and corrective actions regarding the
proposed review recommendations:

Recommendation 1. We recommend that the Asia Bureau Director of Administrative
Management Services assign file custodians for each office.”

Management Decision: The Bureau concurs. File custodians for each of the Bureau’s
management units have been identified. All attended the Records Management
Workshop offered by M/MS/IRD in the Ronald Reagan Building March 15-17, 2011.



                                                                                     11
                                                                               Appendix II


Recommendation 2: We recommend that the Directors of Administrative Management
Services for Asia and Africa Bureaus include records management duties in the work
plans and performance evaluations of file custodians and records liaison officers

Management Decision: The Africa Bureau concurs with the recommendation and will
prepare draft language for inclusion in the work plans and performance evaluations of
all bureau file custodians and records liaison officers. This draft language will be
submitted to supervisors no later than June 30, 2011 for inclusion in the 2011 mid-year
reviews of civil service work plans.

Target Date for Completion: June 30, 2011

The Asia Bureau does not concur with this recommendation. While AMS agrees in
principal with this recommendation, it does not have the authority to write performance
objectives for employees of other management units in the Bureau. Doing so falls
under the purview of the employee and his/her supervisor. In this regard, AMS
instructed the Bureau’s unit managers to include relevant records management
language in the 2011 performance objectives of their USDH file custodians. Please
note that many of the Bureau’s file custodians are institutional support contractors and
do not receive performance evaluations from Bureau managers. 2011 performance
objectives for the Bureau’s RLO and the AMS file custodian reflect recommended
records management language.

Additional actions recently undertaken by the Bureau are listed below:

      On February 18, 2011, AA/ASIA/AMS issued a phased approach to addressing
      the Bureau’s record management responsibilities to ASIA managers. This
      includes:
          o identifying unit file custodians;
          o records management training for ALL Bureau employees;
          o Work with M/MS/IRD to “review current records, establish files in
             accordance with ADS guidance, establish a file plan, and archive official
             records as necessary.”
      ASIA hired a summer intern who will be tasked to assist in the Bureau effort cited
      above;
      The bureau’s RLO, AMS director, and AMS file custodian met with M/MS/IRD on
      April 19, 2011 to discuss the Bureau’s approach mentioned above.

Recommendation No. 3: We recommend that the Division Chief of the Bureau for
Management, Management Services, Information and Records Division amend
USAID’s Automated Directives System Chapter 502 Records Management Program to
make bureaus responsible for implementation of the records management program and
Information and Records Division responsible for establishing policy and ensuring
compliance.

Management Decision: The Information and Records Division (IRD) concurs with the


                                                                                       12
                                                                               Appendix II


recommendation and the Division Chief of the Bureau for Management, Management
Services, Information and Records Division (M/MS/IRD) will:

   1. Revise ADS 502, in conjunction with the stated goals above, to reflect the
      following delineation of duties and responsibilities:
          a. The Director, Management Services, has overall responsibility to
             develop and implement an agency-wide records program for the
             management of all official Agency records (paper, multi-media,
             electronic) and record systems.
          b. The Division Chief, M/MS/IRD is responsible for the overall
             management of the Agency's records program. M/AS/IRD is
             responsible for developing and implementing Agency-wide standards
             and requirements for management of all paper and electronic records.
             M/AS/IRD is also responsible for the Agency Vital Records Program.
          c. The Division Chief, M/MS/IRD position as the Agency's Records
             Officer is responsible for establishing policy and ensuring compliance.
          d. All Assistant Administrators, Mission Directors, Inspector General and
             General Counsel, Office Directors, Division and Branch Chiefs are
             responsible for:
                  i. Implementation of the records management program
                 ii. Ensuring compliance with the provisions of this Directive and all
                     other records management practices.

Target Completion Date: December 31, 2011

Recommendation No. 4: We recommend that the Division Chief of the Bureau for
Management, Management Services, Information and Records Division amend
Automated Directives System Chapter 502 Records Management Program to
include provisions for mandatory Agency-wide records training.

Management Decision: The M/MS/IRD Division Chief concurs with the
recommendation and will revise ADS 502 to include mandatory records training
requirements for affected personnel, which will include:

   1. Completion of the current online Records Overview Course available through
      USAID University; or
   2. Completion of the current instructor-led Records Overview Course

Target Completion Date: December 31, 2011


Recommendation No. 5: We recommend that the Director of Human Resources
Training Division include an introductory module on the importance of records
management, records management policies and procedures (including electronic
records) to be hosted by the Information and Records Division in USAID New Employee
Orientation.


                                                                                         13
                                                                            Appendix II



Management Decision: M/MS/IRD and the Human Resources Training Division
(HR/TE) concur with the recommendation. M/MS/IRD will develop an Introduction to
Records module for presentation at USAID New Employee Orientation and HR/TE
will include on the NEO agenda when scheduling.

Target Completion Date: September 30, 2011


Recommendation No. 6: We recommend that the Chief of the Bureau for
Management, Management Services, Information and Records Division work with the
Deputy Chief Information Officer to develop and execute a plan to manage email
records and text documents electronically in accordance with National Archives and
Records Administration guidelines.

Management Decision: Management Decision: M/MS/IRD and the Office of Chief
Information Officer (OCIO) concur with the recommendation and will develop a plan to
implement a solution that will manage email records and text documents electronically
in accordance with National Archives and Records Administration guidelines. The plan
will contain a plan or action, milestones and budget requirements for implementation.

Target Completion Date: December 31, 2012




                                                                                     14
